U3 E-Mail Address: 775 H Street, NE.
Est eal briefs@wilsonepes.com Washington, D.C. 20002

WSO TG Web Site: Tel (202) 789-0096

en www.wilsonepes.com Fax (202) 842-4896
Nos. 19-431 & 19-454

THE LITTLE SISTERS OF THE Poor SAINTS PETER AND PAUL HoME, Petitioner,
v.
COMMONWEALTH OF PENNSYLVANIA AND THE STATE OF NEW JERSEY, ET AL. Respondents

DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, ET AL., Petitioners
v.
COMMONWEALTH OF PENNSYLVANIA AND THE STATE OF NEW JERSEY, ET AL. Respondents

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on March 9, 2020, three (3) copies of Brief of the Knights of
Columbus, as amicus curiae in support of Petitioners in the above-captioned cases were
served, as required by U.S. Supreme Court Rule 29.5(c), on the following:

Makk L. RIENZI

BECKET FUND FOR RELIGIOUS LIBERTY

1200 New Hampshire Ave. NW

Suite 700

Washington, DC 20036

Attorneys for Petitioners The Little Sisters of the Poor Saints Peter and Paul Home

NOEL J. FRANCISCO

Solicitor General

UNITED STATES DEPARTMENT OF JUSTICE

950 Pennsylvania Avenue, N.W.

Washington, DC 20530-0001

(202) 514-2217

Attorney for Petitioner Donald J. Trump, President of the United States, et al.

MICHAEL J. FISCHER

CHIEF DEPUTY ATTORNEY GENERAL

PENNSYLVANIA OFFICE OF ATTORNEY GENERAL

1600 Arch St.

Suite 300

Philadelphia, PA 19103

Attorneys for Respondents Commonwealth of Pennsylvania, et al.
The following email addresses have also been served electronically:

mrienzi@becketlaw.org
supremectbriefs@usdoj.gov
mfischer@attorneygeneral.gov
ekniffin@lrre.com

| A]
IRENE M. CARR

WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 9th day of March 2020.

 
  

COLIN CASEY
NOTARY PUBLIC
District of Columbia

My commission expires April 14, 2022.

 
